HHS/OIG, Audit -"Review Of Medicare Outlier Payments Made To Virginia Mason Medical Center For the Period August 1, 2000 Through December 31, 2001,"(A-10-03-00004)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review Of Medicare Outlier Payments Made To Virginia Mason Medical Center For the Period August 1, 2000 Through
December 31, 2001," (A-10-03-00004)
October 23, 2003
Complete
Text of Report is available in PDF format (1.39 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether Virginia Mason Medical Centers (the Medical Center)
outpatient claims with outlier payments were billed to Medicare in accordance with applicable laws and regulations.  Our
review of 34 outpatient prospective payment system (OPPS) claims found that
the Medical Center incorrectly billed Medicare on 30 claims.  The billing errors included both overpayments and underpayments.  Twenty-six
claims were overpaid by $55,143 and four claims were underpaid by $10,512, resulting in a net overpayment of $44,631.  The
billing errors occurred because the Medical Center did not correctly implement the OPPS requirements when billing Medicare
for outpatient services.  We recommended that the Medical Center (1) strengthen its billing procedures, (2) resubmit
the claims found to be in error to the fiscal intermediary (FI) for adjustments, and (3) perform an internal review of
OPPS outlier claims for services rendered during the period August 1, 2000 through March 31, 2002 and resubmit the claims
to the FI for adjustments, as applicable.  The Medical Center generally concurred with our findings and recommendations.